CERTIFICATE OF COMPLIANCE
No. 20-1354
CITY OF PORTLAND, OREGON, ET AL.,
PETITIONERS,
V.

FEDERAL COMMUNICATIONS COMMISSION AND
THE UNITED STATES OF AMERICA,
RESPONDENT.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
As required by Supreme Court Rule 33.1(h), I certify that the
Brief of Respondent International Municipal Lawyers Association
in Support of the Petition contains 3418 words, excluding the parts
of the brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on April 25, 2021

Jef Pearlman

